                 U.S. Department of Agriculture

                    Office of Inspector General
                           Great Plains Region




       Audit Report

  Food and Nutrition Service
National School Lunch Program
  Unified School District 486
       Elwood, Kansas




                       Report No. 27010-18-KC
                                  August 2003
                                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                           OFFICE OF INSPECTOR GENERAL - AUDIT
                                                        Great Plains Region
                                                  8930 Ward Parkway, Suite 3016
                                                 Kansas City, Missouri 64114-3302
                                              TEL: 816.926.7667 FAX: 816.926.7676




DATE:                 August 4, 2003

REPLY TO
ATTN OF:              27010-18-KC

SUBJECT:              National School Lunch Program – Unified School District 486,
                      Elwood, Kansas

TO:                   William E. Ludwig
                      Regional Administrator
                      Food and Nutrition Service
                      1244 Speer Boulevard, Suite 903
                      Denver, CO 80204


This report presents the results of our audit of the National School Lunch
Program (NSLP)1 as operated by Unified School District 486. This district served as the
local school food authority (SFA) under an agreement with the Kansas State
Department of Education, which served as the State agency (SA). We found that the
SFA’s purchasing procedures for milk (noncompetitive negotiation) may not have
maximized competition, as required by the SA’s Food Service Facts handbook.
Although the SFA believed only one vendor was interested in providing milk in their
area, we identified another dairy that was interested in competing for the milk contract.
We considered the accuracy of the SFA’s meal counts and accounting for the school
food service operations to be satisfactory.

BACKGROUND:

The U.S. Department of Agriculture’s (USDA) Food and Nutrition Service (FNS) served
as the funding agency. For school year 2001/2002 operations, the SFA received about
$78,000 in FNS reimbursement and about $2,000 in SA reimbursement. Each SA is
required to enter into a written agreement with FNS to administer the NSLP/School
Breakfast Program (SBP) and each SA enters into agreements with SFA’s to oversee
day-to-day operations. The SFA, located in Elwood, Kansas, is responsible for
operating the NSLP in accordance with regulations. The SFA administered the
NSLP/SBP in one public school.




1
    Also includes the School Breakfast Program (SBP).
On June 4, 1946, Congress passed the National School Lunch Act,2 now the
Richard B. Russell National School Lunch Act, which authorizes Federal school lunch
assistance. Section 4 of the Act authorizes general cash assistance payment for all
lunches served to children in accordance with the provisions of the NSLP and additional
special cash assistance for lunches served under the NSLP to children determined
eligible for free or reduced-price lunches. The States are reimbursed at various rates
per lunch, depending on whether the child was served a free, reduced-price, or full-price
(paid) lunch. The fiscal year (FY) 2002 funding for the NSLP was $6 billion for meal
reimbursements of approximately 4.7 billion lunches. The Kansas SA received
approximately $58 million for the NSLP and $14 million for the SBP in Federal
reimbursements for FY 2002. For school year 2001/2002, Kansas provided State funds
of approximately $2.5 million to SFA’s.

OBJECTIVES:

The objectives of the audit were to evaluate controls over the administration of the
NSLP and SBP. We evaluated policies and procedures over meal accountability and
oversight of program operation. To accomplish this, we determined (1) the accuracy of
collections and accounting for reimbursed meals, (2) the accounting and use of program
funds relating to the SFA’s procurement of goods and services, and (3) the accounting
for the SFA’s school food service operations.

SCOPE AND METHODOLOGY:

The review primarily covered NSLP/SBP operations from July 1, 2001, through
December 31, 2002, concentrating on operations since July 1, 2002. However, records
for other periods were reviewed, as deemed necessary. We performed audit work at
the FNS Regional office, Kansas SA, and the SFA in Elwood, Kansas. Audit work was
performed during March through May 2003. We reviewed and observed NSLP/SBP
operations at one public school. This audit was performed in accordance with
Government Auditing Standards.

To accomplish the review objectives, we reviewed FNS, SA, and SFA regulations,
policies, procedures, manuals, and instructions governing NSLP/SBP operations, and
interviewed officials at each level.      We also reviewed the SA’s most recent
administrative review of the SFA’s NSLP/SBP operations and the SFA’s corrective
actions taken in response to administrative review findings and recommendations. We
also (1) evaluated the SFA’s procedures used to gather and consolidate monthly meal
claims and whether reports were verified for accuracy, (2) evaluated edit check controls
used to assure the reasonableness of claims for reimbursement, (3) reviewed the SFA’s
accounting system, which included a review of program funds and interest earned on
those funds, (4) analyzed the SFA’s methods used for procurement of goods and
services and the SFA’s process in monitoring the contract terms and conditions of

2
    42 U.S. Code 1751.
awarded vendors, and (5) analyzed the monitoring efforts of the SFA through a review
of the onsite accountability reviews conducted during school year 2001/2002.

FINDINGS:

Finding No. 1:

The SFA used noncompetitive negotiation from a single source for the awarding of the milk
bid because the SFA’s personnel were unaware other sources were available. As a result,
the SFA may not have been receiving the lowest prices on food purchases.

The SA requires that all procurement must be conducted in a manner that provides
maximum open and free competition. 3

The SFA purchased over $13,000 from its current vendor under the milk bid for the
2001-2002 school year following noncompetitive negotiation with the justification the
milk was available only from a single source. The SFA personnel believed that the
current vendor was the only company in the area that would deliver milk to their district.
We were able to identify an additional milk company that would be interested in
competing for the milk procurement. A bid coordinator for another dairy, after checking
with other company officials, advised they would like to bid to provide milk to the SFA.

Recommendation No. 1:

Require the SA to instruct the SFA to ensure procurements are conducted to provide
maximum competition and to solicit other vendors to compete to provide milk to the
district.

Agency Response:

The written response showed FNS concurred with Recommendation No. 1 and will
require the SA to instruct the SFA to ensure procurements are conducted to provide
maximum competition and to solicit other vendors to compete to provide milk to the
district.

OIG Position:

We can accept the management decision once we receive the specific timeframe for the
completion of the proposed action.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing corrective actions taken or planned and the timeframes for
accomplishing final action. Please note that the regulation requires management

3
    Food Service Facts Handbook, chapter 8.
decisions to be reached on all findings and recommendations within 6 months from the
date of report issuance.

We appreciate the assistance provided to us during our review.

/s/


DENNIS J. GANNON
Regional Inspector General
 for Audit
EXHIBIT A – FNS RESPONSE TO THE DRAFT REPORT
